U.S. Department of                          The Inspector General   Office of Inspector General
Transportation                                                      Washington, D.C. 20590
Office of the Secretary
of Transportation



August 23, 2010


The Honorable Edolphus Towns
Chairman
Committee on Oversight and Government Reform
U.S. House of Representatives
Washington, DC 20515

Dear Chairman Towns:

Thank you for your July 26, 2010, letter requesting that the Department of Transportation
Office of Inspector General (OIG) provide information on the top three open audit
recommendations that, if implemented, would produce the greatest cost savings to the
Federal budget. Additionally, you requested our assessment of the Department's progress
in implementing these recommendations and a description of any administrative or
legislative action needed to bring about these savings.

As of August 4, 2010, we identified 58 open recommendations from 42 audit reports that
carry an estimated monetary benefit or cost savings of $1.1 billion. We consider the
following to be the top three recommendations that, if implemented, would produce the
greatest cost savings to the Department. None of these recommendations require
legislative action.

1. In our report of November 16, 2009, Quality Control Review of Audited Consolidated
   DOT Financial Statements for Fiscal Years 2009 and 2008 (QC-2010-011), Clifton
   Gunderson (an independent external audit firm under OIG contract and supervision)
   recommended that the Department monitor quarterly inactive project reviews—
   particularly on stagnant Highway Trust Fund projects in the Federal Highway
   Administration (FHWA) and the Federal Transit Administration—to ensure inactive
   obligations are liquidated in a timely manner throughout the year. Implementing this
   recommendation would make $800 million available for other uses.

    As of June 30, 2010, we estimate that the Department has de-obligated over
    $400 million of the $800 million identified. Clifton Gunderson will determine how
    much was de-obligated and made available for other priority projects during the audit

Control No. 2010-068
                                                                                          2

    of the FY 2010 DOT Financial Statements, which will be issued on November 15,
    2010.

2. Our report of September 30, 2005, Audit of the Management of Land Acquired Under
   Airport Noise Compatibility Programs (AV-2005-078), includes a recommendation
   that the Federal Aviation Administration (FAA) direct airport sponsors to develop and
   implement plans to recover its share from the disposition of 3,608 unneeded noise
   land acres that were purchased with Airport Improvement Program funds—estimated
   at $160.6 million.

    It is important to note that the land's market value has dropped significantly since the
    time of our audit. To date, FAA has recovered over $14 million, but much of the land
    is planned for future disposal when market conditions improve. For this land, FAA
    provided us a projected recovery amount of an additional $62 million. We have
    contacted FAA for a revised target action date.

3. Our report of March 11, 2009, The Joint Program Office's Management of the
   Intelligent Transportation Systems Program Needs to be Improved (AV-2009-040),
   includes a recommendation that the Research and Innovative Technologies
   Administration (RITA) coordinate with FHWA to identify and review old Intelligent
   Transportation Systems contracts and agreements and de-obligate nearly $20 million
   in unneeded funds.

    To its credit, RITA agreed to de-obligate $48 million—well above the $20 million in
    our report. RITA estimates this will be completed by September 30, 2010.

We are pleased to note that since our April 2010 response to the Committee regarding the
Department's open recommendations, the Office of the Secretary has continued its efforts
to ensure that timely and appropriate action is taken on OIG recommendations. The
Deputy Secretary has been working with Administrators to enhance awareness and
involvement in expeditiously closing OIG recommendations.

Thank you for your inquiry and interest. If you have any questions or need further
information, please contact me at (202) 366-1959 or Nathan Richmond, Director and
Counsel for Congressional and External Affairs, at (202) 493-0422.

Sincerely,




Calvin L. Scovel III
Inspector General


Control No. 2010-068
